           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  ADMINISTRATIVE COSTS CLAIMED
     BY THE IDAHO DISABILITY
    DETERMINATION SERVICES


    May 2007     A-09-06-16120




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 30, 2007                                                              Refer To:

To:        Don Schoening
           Acting Regional Commissioner
            Seattle

From:      Inspector General

Subject:   Administrative Costs Claimed by the Idaho Disability Determination Services
           (A-09-06-16120)


           OBJECTIVE
           Our objectives were to (1) evaluate the Idaho Disability Determination Services’
           (ID-DDS) internal controls over the accounting and reporting of administrative costs,
           (2) determine whether costs claimed by the ID-DDS were allowable and funds
           were properly drawn, and (3) assess limited areas of the general security controls
           environment.

           BACKGROUND

           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the
           wage earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies
           for the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are required to be performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, in
                                                                    1
           accordance with Federal law and underlying regulations. In carrying out its obligation,
           each DDS is responsible for determining claimants’ disabilities and ensuring adequate
           evidence is available to support its determinations. To assist in making proper disability



           1
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Don Schoening

determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay
for program expenditures. Funds drawn down must comply with Federal regulations 2
and intergovernmental agreements entered into by Treasury and States under the
Cash Management Improvement Act of 1990. 3 An advance or reimbursement for costs
under the program must comply with Office of Management and Budget (OMB) Circular
A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the end of
each quarter of the fiscal year (FY), each DDS is required to submit a Form SSA-4513,
State Agency Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations for the FY. 4 The Form SSA-4513 reports
expenditures and unliquidated obligations for personnel, medical, indirect, and all other
nonpersonnel costs. 5

ID-DDS is a component of the Idaho Department of Commerce and Labor (ID-DCL).
For FYs 2004 and 2005, ID-DDS employed about 63 employees and claimed total
disbursements of $13.84 million. The following chart provides an overview of ID-DDS’
organizational structure.




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503 (1990).
4
  SSA, Program Operations Manual System (POMS), DI 39506.201 and DI 39506.202. DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
5
    SSA, POMS, DI 39506.202.
Page 3 – Don Schoening


               Idaho Department of Commerce and Labor

                                          Director



                                                             Legal
                                                            Bureau




                                                                            Office of
       Division of      Division of     Division of
                                                                           Work Force
       Commerce       Field Services      Labor
                                                                             Policy




                       Information       Office of        Division of       Disability
                       Technology      Administrative   Unemployment      Determination
                         Bureau          Services         Insurance         Services



                                                                          Unemployment
                                         Appeals         Benefits/Wage      Insurance
                                         Bureau         and Hour Bureau    Compliance
                                                                              Bureau




RESULTS OF REVIEW

Generally, ID-DDS had effective internal controls over the accounting and reporting of
administrative costs. We also found the costs claimed by the ID-DDS were generally
allowable and funds were properly drawn. However, ID-DDS needs to improve its
general security controls environment. Specifically, we found ID-DDS

•   could have saved about $876,476 in medical costs for FYs 2004 and 2005 had a fee
    schedule been established,

•   did not recover $800,000 of occupancy costs for expansion and remodeling of a
    privately leased building in FY 2003,

•   did not maintain adequate inventory records for $337,615 in equipment purchased
    by SSA,

•   improperly allocated $9,015 of unused leave for terminated employees during
    FYs 2004 and 2005, and

•   needed to improve its general controls over its intrusion detection system (IDS), key
    management, and janitorial services.
Page 4 – Don Schoening

MEDICAL FEE SCHEDULE

ID-DDS did not establish a fee schedule to determine the maximum payment rates
for medical services. Without a fee schedule, SSA and ID-DDS may not be able to
ensure the payment rates for medical services are appropriate and consistently applied.
If payment rates were limited to the highest rate paid by Federal or other State agencies
for the same or similar types of service, we estimate ID-DDS could have saved about
$876,476 in medical costs for FYs 2004 and 2005.

According to SSA policy, the DDS will consider its fee schedule as a maximum payment
schedule for medical or other services that are necessary to make a disability
                6
determination. Authorized payments represent the lower of (1) the provider’s usual
and customary charge or (2) the maximum allowable charge under the fee schedule. 7
According to SSA policy, the DDS will submit to the SSA regional office, Professional
Relations Coordinator, a copy of the new fee schedule for both medical evidence of
record and consultative examinations, and any issuances and instructions pertinent
to their application, whenever the fee schedules have been revised. 8 Also, if the
State component does not set rates, the DDS is responsible, among other things, to
maintain records of both the usual and customary charges billed by, and the authorized
payments paid to the provider of medical records and to review these records annually
with the SSA regional office to determine whether the fee schedule is adequate and
cost-effective. 9

Federal regulations require that each State determine the payment rates for medical or
other services necessary to make disability determinations. The rates may not exceed
the highest rate paid by Federal or other State agencies for the same or similar types of
services. The State must maintain documentation to support the payment rates used. 10

Although ID-DDS paid its medical providers the usual and customary rates, it still
needed to establish a fee schedule to determine the maximum payment rates and
ensure they were reasonable. In June 2006, the Seattle Regional Office conducted an
on-site review of ID-DDS. Based on the results of its review, the Regional Office
recommended that ID-DDS establish a fee schedule of the maximum payments the
DDS will reimburse for consultative examinations, laboratory tests, and x-rays. ID-DDS
implemented a fee schedule in March 2007.




6
     SSA, POMS, DI 39545.210.1.
7
     Id.
8
     SSA, POMS, DI 39545.210.3.
9
     SSA, POMS, DI 39545.410 B.1.d.
10
     20 C.F.R. §§ 404.1624 and 416.1024.
Page 5 – Don Schoening

We determined other State agencies generally paid medical providers based on the
                                                                     11
usual and customary rates, which exceeded those paid by Medicare. We matched
the rates Medicare paid with the fees ID-DDS paid for its medical services. 12 As
depicted in the table below, ID-DDS paid $3,001,329 for 16,561 medical services in
FYs 2004 and 2005. Using the applicable Medicare rates, the maximum payments for
these medical services were limited to $2,124,853. Had a fee schedule had been
established and payment rates limited to the highest allowable rates, we estimate
ID-DDS could have saved about $876,476 in medical costs for FYs 2004 and 2005.

                         Medical                Actual              Maximum               Potential
         FY              Services             Payments              Payments            Cost Savings
        2004               8,026              $1,425,964            $1,032,172            $393,792
        2005               8,535               1,575,365             1,092,681             482,684
        Total             16,561              $3,001,329            $2,124,853            $876,476

OCCUPANCY COSTS

ID-DDS claimed $800,000 in occupancy costs to expand and remodel a privately
leased building in FY 2003. Although SSA authorized funding for the renovation, we
determined ID-DDS did not reduce the rental rate to offset $450,000 of these costs.
In addition, we found SSA and ID-DDS did not recover the remaining $350,000 in
renovation costs, which resulted in the rental rate exceeding the market price of
comparable privately owned space.
                                                                                                    13
Under State policy, the cost to alter or remodel a leased facility is an occupancy cost.
SSA policy allows the regional office to approve payments for repairs or alterations
to obtain lower rental rates. Major repairs and replacement of DDS office space may
be amortized over a period of years provided the total annual costs for space do not




11
   The Idaho Industrial Commission used usual and customary charges to regulate medical costs for
workers' compensation claims in FYs 2004 and 2005. On April 1, 2006, the Idaho Industrial Commission
adopted a fee schedule for all medical services based on the American Medical Association’s Current
Procedural Terminology codes. The Idaho Division of Vocational Rehabilitation established maximum
payments for certain specialty examinations to assist disabled individuals in preparing for, securing,
or retaining employment. However, the Idaho Division of Vocational Rehabilitation used usual and
customary charges for all other examinations and ancillary tests.
12
  We matched about 89 percent of the medical services claimed by ID-DDS with the American Medical
Association’s Current Procedural Terminology codes used by Medicare.
13
     State of Idaho, Department of Administration, State Facilities Manual, February 2001.
Page 6 – Don Schoening

exceed comparable rental costs. 14 SSA policy also states that rental charges to SSA
must not exceed the rental rate of comparable privately owned space in the same or
similar localities. 15

In FY 2003, ID-DDS requested funding from SSA to expand and remodel its current
office instead of relocating to another location. ID-DDS and the lessor intended to
reduce the rent by $450,000 (that is, $45,000 annually over the lease term of 10 years)
to partially offset the renovation costs paid by SSA. SSA authorized funding for the
renovation in September 2003.

In January 2004, ID-DDS signed a 10-year lease effective September 2004. Under
the lease agreement, ID-DDS paid the fair market value of $14.95 per square foot.
However, the lease did not include the agreed-upon reduction in rent to recover the
$450,000 in renovation costs paid by SSA. This occurred because SSA, ID-DDS,
and ID-DCL did not follow up to ensure the lower rental rate was incorporated into
the signed lease.

In addition, SSA and ID-DDS did not determine how the remaining $350,000 in
renovation costs would be recovered. These costs, which were paid by SSA, should
have reduced the rent by an additional $35,000 annually over the 10-year lease term.
Since the $350,000 was neither refunded nor recovered, the effective rental rate paid
by ID-DDS actually exceeded that of comparable privately leased property in the area.

INVENTORY CONTROLS

In FYs 2004 and 2005, ID-DDS did not maintain adequate inventory records for
$337,615 in equipment purchased by SSA. Of this amount, we determined that
$158,238 in equipment was not inventoried, and $179,377 in equipment was not
accurately and timely updated in the inventory records.

Equipment Not Inventoried

ID-DDS did not inventory equipment purchased by SSA with a unit cost of less than
$2,000. This occurred because State policy only requires that equipment with a unit
cost over $2,000 be inventoried. As a result, ID-DDS did not properly account for
equipment with an estimated cost of $158,238 during FYs 2004 and 2005. This
equipment included 84 desktop computers, 140 monitors, and 56 printers.




14
     SSA, POMS, DI 39527.025 A.2.
15
     SSA, POMS, DI 39527.015 A.1.a.
Page 7 – Don Schoening

State regulations require that capital assets (that is, personal property with a unit cost
of at least $2,000) and any items below $2,000 that are particularly vulnerable to loss
must be inventoried. 16 Within ID-DCL, the Supply and Central Receiving Section is
responsible for conducting periodic inventories and maintaining records of ID-DDS
equipment. We found that ID-DCL did not inventory the computers, monitors, and
printers because it believed that none of these items were vulnerable to loss.

However, Federal regulations require that the State maintain all property furnished by
SSA. The State is also required to identify the equipment by labeling and by inventory
                                                                               17
and to credit the SSA account with the fair market value of disposed property. Unless
complete and accurate inventory records are maintained, ID-DDS may be unable to
properly safeguard its assets. As a result of our audit, in January 2007, ID-DDS
conducted a complete physical inventory of all equipment purchased by SSA.

Inventory Records Not Accurately Updated

ID-DCL and ID-DDS did not accurately and timely update its inventory records for
equipment purchased by SSA with a unit cost of at least $2,000. Although ID-DCL
performed an annual physical inventory of equipment over $2,000, we found that
some equipment was not always identified and inventoried. In addition, ID-DDS did
not promptly notify ID-DCL when equipment was subsequently purchased, replaced,
or exchanged. As a result, we identified equipment with an estimated cost of
$179,377 that was not accurately reflected on State inventory records.

Federal regulations and SSA policy require that the State be responsible for the
maintenance and inventory of all equipment acquired—whether purchased through
SSA or the State. 18

Specifically, we found that ID-DCL did not account for the purchase of 3 scanners
valued at $10,500, replacement of a large mainframe system valued at $80,877, and
purchase or replacement of 15 computer servers and routers valued at $88,000. This
occurred because ID-DDS relied on the annual inventory performed by ID-DCL to
identify these items and update its records. As a result of our audit, in January 2007,
ID-DCL updated its inventory records based on information provided by ID-DDS.




16
     State of Idaho, Office of the State Controller, Fiscal Policies Manual, April 23, 2002.
17
     20 C.F.R. §§ 404.1628 and 416.1028.
18
     Id.; SSA, POMS, DI 39530.020 A.1.
Page 8 – Don Schoening

PAYMENT OF UNUSED LEAVE TO TERMINATED EMPLOYEES

ID-DCL improperly allocated unused leave for terminated employees to specific
                                   19
activities within each cost center. These costs should have been allocated as general
administrative expenses across all activities of the Department. This occurred because
ID-DCL relied on the methodology in its accounting system to ensure compliance with
OMB Circular A-87. As a result, ID-DCL charged $9,015 of unused leave for terminated
employees to SSA’s programs. In FY 2004, 12 employees separated from service and
received lump-sum payments totaling $2,726 for their accumulated leave balances.
In FY 2005, 10 employees separated from service and received lump-sum payments
totaling $6,289.

OMB guidance states that payments for unused leave for an employee who retires
or terminates employment are allowable in the year of payment provided they are
allocated as a general administrative expense to all activities of the governmental unit
or component. 20 Thus, the costs should have been allocated to all activities across
ID-DCL rather than specific activities within ID-DDS. In July 2002, SSA reminded its
staff of the proper method for reporting payments of accumulated leave or severance
pay when an individual leaves employment. SSA encouraged each DDS to examine
their indirect cost agreements to ensure that payments of unused leave to retired or
terminated employees were accounted for in accordance with OMB Circular A-87. 21

GENERAL SECURITY CONTROLS

We assessed limited areas of ID-DDS’ general security controls environment. Based
on this assessment, we found that ID-DDS needs to improve its general controls over
its IDS, key management, and janitorial services.

Intrusion Detection System

We found that ID-DDS did not test the IDS as required. SSA policy requires that
the IDS be tested semiannually with the monitoring company to ensure all sensors
are working properly. 22 Our review disclosed the IDS had not been tested since its
installation in August 2004.

In addition, ID-DDS had not changed the IDS code since August 2004. According
to SSA policy, the IDS code should be changed when (1) staff who know it leave
or no longer have a need to know it or (2) compromise of the codes occurs or is


19
     A cost center is an organizational unit or component that accumulates costs for specific activities.
20
     OMB, Circular A-87, Attachment B, 8.d.3.
21
     SSA, Office of Disability, DDS Administrators' Letter No. 615, July 31, 2002.
22
     SSA, POMS, DI 39566.010 B.2.h.
Page 9 – Don Schoening

suspected. 23 We identified 21 employees who had transferred or separated from
ID-DDS since August 2004. As a result of our audit, ID-DDS tested the IDS in
January 2007 and planned to change the IDS codes as required.

Key Management

ID-DDS issued magnetic key cards to all DDS employees and other necessary ID-DCL
personnel to enter the building. However, ID-DDS management was unaware the
magnetic key cards had been erroneously programmed to allow access to all doors in
the building at all times. Specifically, the magnetic key cards provided unlimited access
to the computer room to all employees.

SSA policy states that access to the computer room should be restricted by
                                      24
management or authorized personnel. As a result of our audit, ID-DDS took
corrective action to reprogram all magnetic key cards to limit access to the computer
room to management and authorized personnel only.

Janitorial Services

The lessor provided janitorial services for ID-DDS after working hours. The janitors
had the master keys to enter the building and clean unescorted. The master keys also
allowed the janitors to retain unrestricted access to most offices in ID-DDS, including
the computer, electrical, training and meeting rooms.

SSA policy states the office should be cleaned during working hours, if possible. If not,
extra care should be taken to ensure sensitive and Privacy Act documents are kept
secure overnight. 25 In addition, SSA policy states the possession of keys should be
limited to management or restricted to those individuals who are required to have
them. 26

During our review, we observed that some file cabinets contained sensitive materials
but were unlocked after working hours. ID-DDS management agreed that the offices
can be cleaned during working hours if the work is performed at the end of the day. We
believe that ID-DDS should work with the lessor to arrange for daytime cleaning. If
daytime cleaning is not possible, ID-DDS should ensure all sensitive information is
locked after working hours. As a result of our audit, ID-DDS retrieved the master keys
from the janitors and issued magnetic key cards with limited access only.



23
     SSA, POMS, DI 39566.010 B.6.d.
24
     SSA, POMS, DI 39566.010 B.2.l.
25
     SSA, POMS, DI 39566.010 B.6.e.
26
     SSA, POMS, DI 39566.010 B.6.a.
Page 10 – Don Schoening

CONCLUSION AND RECOMMENDATIONS

Our review disclosed that ID-DDS could have saved about $876,476 in medical costs
for FYs 2004 and 2005 had a fee schedule been established. We found that ID-DDS
did not recover $800,000 of occupancy costs for expansion and remodeling of a
privately leased building in FY 2003. In addition, ID-DDS did not maintain adequate
inventory records for $337,615 in equipment and improperly allocated $9,015 of unused
leave for terminated employees. Finally, ID-DDS needs to improve its general controls
over its IDS, key management, and janitorial services.

We recommend that SSA:

1. Ensure ID-DDS establishes a fee schedule for medical costs. The fees may not
   exceed the highest rate paid by Federal or other State agencies for the same or
   similar types of service.

2. Instruct ID-DDS to refund $450,000 of occupancy costs charged for FY 2003 or
   amend the lease to reduce the rent by amortizing the SSA-funded renovation costs
   over the lease term.

3. Improve its monitoring of occupancy costs to ensure (1) renovation costs paid by
   SSA are fully recovered and (2) rental rates do not exceed the market prices of
   comparable privately owned space.

4. Ensure ID-DDS maintains adequate inventory records of all equipment purchased
   by SSA.

5. Instruct ID-DCL to adjust the method of charging payments of unused leave for
   terminated employees and allocate the payments as the general administrative
   expenses across all activities of the governmental unit or component.

6. Ensure ID-DDS tests the IDS at least semiannually and changes the IDS codes
   whenever personnel changes occur.

7. Ensure ID-DDS restricts access to the computer room to management and
   authorized personnel only.

8. Instruct ID-DDS to work with the lessor to arrange for daytime cleaning. If daytime
   cleaning is not possible, ensure all sensitive information is secure after working
   hours.
Page 11 – Don Schoening

AGENCY COMMENTS
SSA and ID-DDS agreed with all our recommendations. See Appendices C and D for
the full text of SSA’s and ID-DDS' comments.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Social Security Administration Comments

APPENDIX D – Idaho Disability Determination Services Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act             Social Security Act
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
EDP             Electronic Data Processing
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
ID-DCL          Idaho Department of Commerce and Labor
ID-DDS          Idaho Disability Determination Services
IDS             Intrusion Detection System
OIG             Office of the Inspector General
OMB             Office of Management and Budget
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
U.S.C.          United States Code
                                                                       Appendix B

Scope and Methodology
We reviewed the administrative costs reported to the Social Security Administration
(SSA) by the Idaho Disability Determination Services (ID-DDS) on the State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal Fiscal
Years (FY) 2004 and 2005. As of December 31, 2005, ID-DDS reported the following
disbursements and unliquidated obligations on its Forms SSA-4513.

                     Category                          FY 2004             FY 2005
    Disbursements
      Personnel Costs                                    $3,379,164          $3,613,919
      Medical Costs                                       2,006,098           2,179,395
      Indirect Costs                                        424,303             421,193
      All Other Nonpersonnel Costs                          826,977             987,338
      Total Disbursements                                 6,636,542           7,201,845
    Unliquidated Obligations                                  5,195             170,062
    Total Obligations                                    $6,641,737          $7,371,907

To achieve our objectives, we

•     reviewed applicable Federal laws and regulations, pertinent sections of SSA’s
      Program Operations Manual System, and other criteria relevant to administrative
      costs claimed by ID-DDS and drawdowns of SSA program funds;
•     reviewed ID-DDS’ policies and procedures related to personnel, medical, indirect,
      and all other nonpersonnel costs;
•     interviewed employees from SSA, ID-DDS, and Idaho Department of Commerce
      and Labor (ID-DCL);
•     reconciled the amount of Federal funds drawn for support of program operations to
      the allowable expenditures;
•     examined the administrative costs incurred and claimed by ID-DDS for personnel,
      medical, and all other nonpersonnel costs during FYs 2004 and 2005;
•     reconciled the accounting records to the administrative costs reported by ID-DDS on
      the Forms SSA-4513 for FYs 2004 and 2005;
•     selected a random sample of personnel, medical, and all other nonpersonnel costs;
•     verified indirect costs for FYs 2004 and 2005 based on the approved indirect cost
      allocation plan;
•     performed a physical inventory of equipment that SSA provided to the ID-DDS; and
•     conducted a limited examination of ID-DDS’ general security controls environment.


                                            B-1
We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling
it with the costs claimed on the Form SSA-4513. We also conducted detailed audit
testing on selected data elements from the electronic files.

We performed audit work at the ID-DDS and ID-DCL in Boise, Idaho, and the Office
of Audit in Richmond, California. Field work was conducted between June and
December 2006. We conducted our audit in accordance with generally accepted
government auditing standards.

SAMPLING METHODOLOGY

Our sampling methodology included the three general areas of costs as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other nonpersonnel costs.
We obtained computerized data from ID-DDS for FYs 2004 and 2005 for statistical
sampling.

Personnel Costs

We reviewed all 57 personnel transactions from 1 pay period in FY 2005. In addition,
we reviewed the transactions for all six medical consultants contracted by ID-DDS for
1 month in FY 2005. We tested payroll records to ensure ID-DDS accurately paid its
employees and adequately supported these payments.

Medical Costs

We reviewed 100 medical cost items (50 items from each FY) using a stratified random
sample. We distributed the sample items between medical evidence of records and
consultative examinations based on the proportional distribution of the total medical
costs for each year.

All Other Nonpersonnel Costs

We reviewed 100 all other nonpersonnel costs items (50 items from each FY)
using a stratified random sample. Before selecting our sample, we sorted the
transactions into the following categories: (1) occupancy costs, (2) contracted
costs, (3) electronic data processing (EDP) maintenance, (4) new EDP equipment,
(5) equipment, (6) communications, (7) applicant travel, (8) ID-DDS travel, (9) supplies,
and (10) miscellaneous. We then distributed the 50 sample items between these
categories based on the proportional distribution of all other nonpersonnel costs for
each year. In addition, we reviewed all transactions for rental costs for each year.




                                          B-2
                                   Appendix C

Social Security Administration Comments
                                    SOCIAL SECURITY
MEMORANDUM
DATE:        May 16, 2007                                        Refer To: S2DXG3:DPA1

TO:          Inspector General
             Office of the Inspector General

FROM:        Acting Regional Commissioner
             Seattle Region

SUBJECT:     Administrative Costs Claimed by the Idaho Disability Determination Services
             (A-09-06-16120) -- REPLY

This responds to the draft report of the Office of the Inspector General (OIG) audit of the Idaho
Disability Determination Services’ (ID-DDS) Administrative Costs (A-15-02-12025). Comments on the
eight recommendations are provided below.

Recommendation 1: Ensure the ID-DDS establishes a fee schedule for medical costs. The fees
may not exceed the highest rate paid by Federal or other State agencies for the same or similar types
of service.

Response: We concur. The DDS has established a fee schedule effective March 1, 2007. The fee
schedule comports with the guidelines not to exceed the highest rate paid by Federal or other State
agencies for the same or similar types of service.

Recommendation 2: Instruct the ID-DDS to refund $450,000 of occupancy costs charged for FY
2003 or amend the lease to amortize the SSA-funded renovation costs over the lease term.

Response: We concur.

Recommendation 3: The ID-DDS should improve its monitoring of occupancy costs to ensure (1)
renovation costs paid by SSA are fully recovered and (2) rental rates do not exceed the market prices
of comparable privately owned space.

Response: We concur. Action has been taken within the Center for Disability (CD) to ensure that all
appropriate steps are followed when a decision is made to renovate or relocate. An automated tool
has been provided to the region’s DDSs and is posted on the CD website.

Recommendation 4: Ensure the ID-DDS maintains adequate inventory records of all equipment
purchased by SSA.

Response: We concur. The DDS inventory records of equipment have been corrected. A State
Single audit completed in January 2007 confirmed the adequacy of the inventory controls.



                                                C-1
Recommendation 5: Instruct the Idaho Department of Commerce and Labor (ID-DCL) to adjust the
method of charging payments of unused leave for terminated employees and allocate the payments
as the general administrative expenses across all activities of the governmental unit or component.

Response: We concur. The ID-DCL has been given a copy of DDS Administrators’ Letter No. 615,
dated July 31, 2002, and will adjust the method of charging payments of unused leave for terminated
DDS employees.

Recommendation 6: Ensure ID-DDS tests the intrusion detection system (IDS) at least semi-
annually and changes the IDS codes whenever personnel changes occur.

Response: We concur. The IDS was tested recently and the DDS has set a semi-annual schedule to
re-test the system. Changing the IDS codes is now part of the DDS procedure whenever personnel
changes occur. The ID-DDS Director certifies that this action has been taken in the annual manager
self-review that is completed by September 30 each year.

Recommendation 7: Ensure ID-DDS restricts access to the computer room to management and
authorized personnel only.

Response: We concur. New DDS policy restricts non-management and non-IT staff from access to
the computer room. The ID-DDS Director certifies that this action has been taken in the annual
manager self-review that is completed by September 30 each year.

Recommendation 8: Instruct ID-DDS to work with the lessor to arrange for daytime cleaning. If
daytime cleaning is not possible, ensure all sensitive information is secured after working hours.

Response: We concur. The DDS worked with the lessor to obtain daytime cleaning which became
effective April 1, 2007.

We appreciate the opportunity to comment on the audit recommendations. If your staff has any
questions regarding our comments, please contact Don Larsen, Center for Disability, at telephone
number 206-615-2651.


                                        /s/ Donald Schoening




                                                C-2
                                     Appendix D

Idaho Disability Determination Services
Comments
D-1
D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   Manfei Lau, Auditor-in-Charge

   James Sippel, Senior Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-06-16120.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
